No. 20-107

 

IN THE

Supreme Court of the United States

CEDAR POINT NURSERY, ET AL.,

Petitioners,
Vv.

VICTORIA HASSID, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit

BRIEF OF SENATORS SHELDON WHITEHOUSE,
JEFF MERKLEY, RICHARD BLUMENTHAL, CORY
BOOKER, AND ALEX PADILLA, IN SUPPORT
OF RESPONDENTS

CERTIFICATE OF COMPLIANCE
Note, this is a corrected brief replacing that which was filed on Friday the 12th

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,915 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 17, 2021.

Colin Casey fier

Wilson-Epes Printing Co., Inc.
